                      UNCLASSIFIED

  United States Department of State
and the Broadcasting Board of Governors
         Office of Inspector General




                 Office of Audits


Review of the Information
 Security Program at the
  Department of State
Report Number AUD/IT-10-10, November 2009




                                IMPORTANT NOTICE


 This report is intended solely for the official use of the Department of State or the
 Broadcasting Board of Governors, or any agency or organization receiving a copy
 directly from the Office of Inspector General. No secondary distribution may be
 made, in whole or in part, outside the Department of State or the Broadcasting
 Board of Governors, by them or by other agencies or organizations, without prior
 authorization by the Inspector General. Public availability of the document will be
 determined by the Inspector General under the U.S. Code, 5 U.S.C. 552. Improper
 disclosure of this report may result in criminal, civil, or administrative penalties.




                        UNCLASSIFIED
                                      UNCLASSIFIED




                                                    United States Department of State
                                                    and the Broadcasting Board of Governors

                                                    Office of Inspector General




                                         PREFACE


     This report was prepared by the Office of Inspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended. It is one of a series of audit, inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment of the strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

     I express my appreciation to all of those who contributed to the preparation of this report.




                                           Harold W. Geisel
                                           Deputy Inspector General




                                      UNCLASSIFIED
                                            UNCLASSIFIED




                                TABLE OF CONTENTS

     Section                                                                                                         Page

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
BACKGROUND. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
RESULTS OF 2009 FISMA REVIEW. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
   Critical, Volatile, and Inherited Controls Were Not Adequately Identified or
   Tested . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
   Connectivity Between Contractor Systems and Department Systems Was Not
   Adequately Identified, Tested, and Monitored . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
   Contingency Plan Toolkits Should be Improved . . . . . . . . . . . . . . . . . . . . . . . . 12
   Management of Configuration Management Controls Process Was Not
   Adequate . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
   Security Weaknesses in iPost Were Not Captured in the Department POA&M
   Database . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
   Information Security Weaknesses Were Not Adequately Managed . . . . . . . . . . 19
   IT Audit-Related Security Weaknesses Were Not Adequately Managed . . . . . . 21
   Security Awareness Training Requirements Were Not Enforced . . . . . . . . . . . . 24
   All Employees With Significant Security Responsibilities Did Not Attend
   Required Role-Based Training . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
   Inventory Records Were Materially Correct . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
   Incident Management Program Was Adequately Managed . . . . . . . . . . . . . . . . 29
   Privacy Program Is in Compliance With Federal Requirements and OMB
   Guidance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
LIST OF RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33
ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37
APPENDICES
   A. Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39
   B. Follow-up of Recommendations From the FY 2008 FISMA Report . . . . . . 41
   C. Bureau of Information Resource Management Response . . . . . . . . . . . . . . . 45



                                              UNCLASSIFIED
                                             UNCLASSIFIED




                             EXECUTIVE SUMMARY

        In response to the Federal Information Security Management Act of 2002
    (FISMA) (44 U.S.C. § 3545 et seq.), the review team performed an independent
    evaluation of the information security program at the Department of State (De-
    partment). The review team reviewed the Department’s progress in addressing
    FISMA information management and information security program requirements
    per FISMA and other statutory requirements, including Office of Management and
    Budget (OMB) guidance. The review team assessed performance in various ar-
    eas, including certification and accreditation (C&A), plan of action and milestones
    (POA&M), security awareness and training, configuration management, inventory,
    incident reporting, and privacy requirements. Since FY 2008, the Department has
    taken steps to improve management controls to include the following:

         •    Updated Inventory Toolkits to provide guidance for inventory identification,
              analysis, and recording. Significant improvements have been made to ensure
              that inventory is materially correct.
         •    Effectively managed a decentralized Incident Management Program and re-
              ported incidents timely to the United States Computer Emergency Readiness
              Team (US-CERT).
         •    Updated the Privacy Impact Assessment template to make it compliant with
              OMB guidance.
         However, further improvements are needed.

         •    Although the Annual Control Assessment Toolkit was modified in the third
              quarter of FY 2009 to include a definition of critical and volatile controls
              and training was provided to systems owners, the Department should work
              with systems owners to identify critical and volatile controls that should be
              tested for each application and system; expand the quality control program
              to include analysis of how well certification testing addresses critical, volatile,
              and inherited controls; and ensure all controls are tested over a 3-year C&A
              cycle.
         •    Although the C&A Toolkits were modified in FY 2009 to instruct systems
              owners on how to identify external and inter-connections agreements, the
              Department should supplement the current information provided in the
              C&A Main Toolkit and Inventory Toolkit to include additional guidance for


OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009       1 .


                                             UNCLASSIFIED
                                   UNCLASSIFIED



             annual testing of critical and volatile controls and be more proactive in re-
             viewing Systems Security Plans and test results to ensure compliance with the
             methodology in the C&A Toolkits.
         •   Although the Contingency Plan (CP) Toolkits were created in FY 2009,
             the Department should update them to include requirements that systems
             owners should review and revise CP following CP failed test results, create
             POA&M for failed CP control tests, and include verification by the Office of
             Information Assurance that systems owners are complying with CP Toolkits
             and methodology.
         In addition, the Department should take the following actions:

         •   Create an Information Security Architecture that outlines information secu-
             rity responsibility for the Department’s decentralized information security
             environment.
         •   Record and report systemic security weaknesses identified through the iPost/
             site Scoring process as POA&M actions to ensure that these weaknesses are
             tracked, prioritized, and remediated.
         •   Develop a method that ensures that each systems owner provides timely and
             complete updates to the POA&M database. Validate the information in the
             Department POA&M database, and review the Corrective Action Plan report
             before it is submitted to OMB.
         •   Create a Standard Operating Procedure for managing information technol-
             ogy-related security weaknesses that are identified during Chief Financial
             Officers Act and Office of Inspector General audits and for Government
             Accountability Office and OMB Circular A-123, Management’s Responsibility for
             Internal Control, reviews.
         •   Implement methods to globally enforce the security awareness policies, and
             enhance existing methods to identify users who should take the Cyber Secu-
             rity Awareness Training Course.
         •   Improve methods to identify individuals with significant security responsibili-
             ties, ensure that they take the required training every 3 years, record the train-
             ing records in the Office of Personnel Management-approved centralized
             system, and provide management with tools to monitor compliance with the
             training requirement.
          The Toolkits provided guidance and ensured standard processes were used to
      perform C&A of FISMA-related systems. However, effective monitoring was not
      performed to ensure that systems owners were complying with established guidance




2 .            OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                                   UNCLASSIFIED
                                             UNCLASSIFIED



    and methodology. Without active monitoring to ensure compliance, controls not
    tested for systems or networks may not be working effectively and could expose the
    Department to loss of confidentiality, integrity, or availability.

    Management Comments

        In its consolidated response (Appendix C), the Bureau of Information Resource
    Management, in coordination with the Bureau of Diplomatic Security and the Bu-
    reau of Administration, concurred with the report’s nine recommendations. Based
    on the consolidated response, OIG considers all of the recommendations resolved,
    pending further action.




OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009   3 .


                                             UNCLASSIFIED
                          UNCLASSIFIED




-
4 .   OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                          UNCLASSIFIED
                                             UNCLASSIFIED




                                       BACKGROUND


    Federal Information Security Management Act

         The Federal Information Security Management Act of 2002 (FISMA) (Public
    Law 107-347, title III) recognized the importance of information security to the eco-
    nomic and national security interests of the United States. It requires each Federal
    agency to develop, document, and implement an agency-wide program to provide
    information security for the information systems that support the operations and as-
    sets of the agency, including those provided or managed by another agency, contrac-
    tor, or other source. FISMA provides a comprehensive framework for establishing
    and ensuring the effectiveness of management, operational, and technical controls
    over information technology (IT) that supports Federal operations and assets, and it
    provides a mechanism for improved oversight of Federal agency information secu-
    rity programs.

        FISMA assigns specific responsibilities to Federal agencies, the National Institute
    of Standards and Technology (NIST), and the Office of Management and Budget
    (OMB) in order to strengthen information system security. In particular, FISMA
    requires the head of each agency to implement policies and procedures to cost ef-
    fectively reduce IT security risks to an acceptable level. To ensure the adequacy and
    effectiveness of information security controls, FISMA requires agency program
    officials, Chief Information Officers (CIO), Senior Agency Officials for Privacy, and
    Inspectors General to conduct annual reviews of the agency’s information security
    program and report the results to OMB.

         Annually, OMB provides guidance with reporting categories and questions for
    meeting the current year’s reporting requirements. OMB uses this data to assist in
    its oversight responsibilities and to prepare its annual report to Congress on agency
    compliance with FISMA.

    Objective

        In accordance with FISMA, the Office of Inspector General (OIG) initiated an
    annual review of the Department of State information security program and prac-
    tices as they relate to FISMA.


OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009   5 .


                                             UNCLASSIFIED
                                    UNCLASSIFIED



           The objective of the review was to evaluate the progress the Department had
      made in implementing an effective information security program and related prac-
      tices since the last OIG annual FISMA review in FY 2008, Review of the Information
      Security Program at the Department of State (AUD/IT-08-36, Oct. 2008).




-
6 .             OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                                    UNCLASSIFIED
                                             UNCLASSIFIED




               RESULTS OF 2009 FISMA REVIEW


    CRITICAL, VOLATILE, AND INHERITED CONTROLS WERE NOT
    ADEQUATELY IDENTIFIED OR TESTED
        In response to an FY 2008 FISMA report recommendation, the Bureau of
    Information Resource Management, Office of Information Assurance (IRM/IA),
    improved its Annual Control Assessment Toolkit and provided two training work-
    shops in May 2009 for systems owners. The Toolkit provided definitions of what
    constitute critical and volatile controls as follows:

         •    Critical Control — Any control is considered critical if the failure of this
              single control is expected to result in a non-trivial breach of confidentiality,
              integrity, or availability (denial of service) of information in the system or
              subsystem.

         •    Volatile Control — Any control that shows a historical pattern of unreli-
              ability. That shall be interpreted to mean any control for the system that has
              been verified to be working, has subsequently failed, and has not yet been
              verified to be working again in three subsequent tests over at least 2 years.

         The review team found that six (25 percent) of the 23 in-scope high- to mod-
    erate-impact systems reviewed documented critical or volatile controls in their test
    programs but that there was no rationale for selecting and testing these controls.
    Some systems designated a control as critical, while others showed it either as vola-
    tile or as neither. Significant control testing gaps were found for systems that were
    certified and accredited in the FY 2008 report. Test gaps for these systems were
    virtually identical to testing gaps for annual testing. For many of the testing gaps
    identified, test documentation cited the controls as “inherited,” either at the bureau
    level or from OpenNet. However, the review team found that these controls were
    not tested at the bureau level and had not been tested by OpenNet. The review team
    also found that OpenNet did not test or effectively test for the control risks at the
    bureau or system level. Additionally, the review team reviewed iPost controls as part
    of the Configuration Management (CM) review and found that while the controls
    did provide continuous monitoring, they did not compensate for the lack of annual
    testing for access and other volatile controls at the system level.

OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009    7 .


                                             UNCLASSIFIED
                                     UNCLASSIFIED



          Section 2.9.2, “Selection of Security Controls for Monitoring,” of NIST Special
      Publication (SP) 800-37, revision 1, Guide for the Security Certification and Accreditation of
      Federal Information Systems, states:

               The criteria for selecting which security controls to monitor and for
               determining the frequency of such monitoring should be established
               by the information system owner or common control provider in
               collaboration with the authorizing official or designated representa-
               tive, chief information officer, senior agency information security
               officer, and risk executive (function). The criteria should reflect the
               organization’s priorities and importance of the information system
               (or in the case of common controls, the information systems inherit-
               ing the controls) to organizational operations and assets, individu-
               als, other organizations and the Nation in accordance with Federal
               Information Processing Standards (FIPS) Publication 199, or the
               Committee on National Security Systems (CNSS) Instruction 1199.
               Organizations should use risk assessments, results of previous secu-
               rity assessments, and operational requirements in guiding the selec-
               tion of security controls to be monitored and the frequency of the
               monitoring process.

               Priority for control monitoring should be given to the security
               controls that have the greatest volatility (i.e., the greatest potential
               for change) after implementation and the controls that have been
               identified in the organization’s plan of action and milestones for the
               information system.

           IRM/IA’s new policy for critical and volatile controls was implemented only in
      the third quarter of FY 2009. As a result, earlier testing was not compliant with De-
      partment policy. IRM/IA’s quality control review did not independently verify that all
      critical and/or volatile controls were tested annually. IRM/IA relied on information
      system testers to perform the verification. The review team found that OpenNet’s
      boundary definition was going through significant changes, which may have contrib-
      uted to gaps in Enterprise Control testing.

         Controls not tested for the systems or network may not be working effectively
      and could expose Department data to loss of confidentiality, integrity, or availability.




8 .              OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                                     UNCLASSIFIED
                                             UNCLASSIFIED



        Recommendation 1: The Chief Information Security Officer and the Bureau
        of Information Resource Management (IRM) should:

              • Work with systems owners to identify critical and volatile controls to test
              and use National Institute of Standards and Technology (NIST) Special
              Publication (SP) 800-53, revision 3, Recommended Security Controls for Federal
              Information Systems, August 2009, P1 priority controls as a starting point.
              • Establish procedures to verify that volatile controls are correctly deter-
              mined and tested.
              • Expand the IRM quality control program to include analysis of how well
              certification testing addresses critical, volatile, and inherited controls and
              to also determine whether all controls are tested over a 3-year certification
              and accreditation cycle.
              • Review inherited control selection procedures and update policy in the
              Toolkit to ensure that misunderstandings about critical but inherited con-
              trol testing responsibility are resolved.
              • Provide formal guidance on which NIST SP 800-53, revision 3, controls
              may be inherited from OpenNet and the conditions under which such in-
              heritance will be approved.



    Management Response and OIG Reply

        IRM concurred with the recommendation, stating that it will update the C&A
    toolkit to clarify how inherited controls may be selected, update the exit criteria
    checklist to ensure that inherited controls are selected in a manner consistent with
    policy, and ask NIST to map controls to the vulnerabilities listed on the National
    Vulnerability Database. Based on the response, OIG considers the recommendation
    resolved, pending further action.



    CONNECTIVITY BETWEEN CONTRACTOR SYSTEMS AND
    DEPARTMENT SYSTEMS WAS NOT ADEQUATELY IDENTIFIED,
    TESTED, AND MONITORED
        In response to two FY 2008 FISMA report recommendations, the Department
    modified the certification and accreditation (C&A) toolkits to instruct systems own-
    ers to (a) identify external inter-connections and include copies of required Intercon-
    nection Security Agreement (ISA) and Memorandum of Understanding/Agreement
    (MOU/MOA) documents in the System Security Plan (SSP) and (b) test and verify,

OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009   9 .


                                             UNCLASSIFIED
                                       UNCLASSIFIED

       at least annually, that interconnection agreements are listed and current in the SSP.
       The C&A toolkits were modified by IRM/IA to include specific instructions for the
       following:

           •   Requesting that systems owners update and add to the SSP any information
               on ISA, MOU, and MOA interconnections.
           •   Modifying the inventory data call so that it includes:
               ▫    Reviewing the completeness and content of systems connections identi-
                    fied in SSPs,
               ▫    Accurately assessing the risk that those connections pose to other De-
                    partment systems, and
               ▫    Verifying (at least annually) that all active connections to/from existing
                    major information systems are completely listed in the SSPs.
            The review team found that 13 (57 percent) of 23 in-scope unclassified systems
       listed MOU/MOA information in their SSPs, as required, as compared with nine (50
       percent) of 18 in-scope unclassified systems assessed during the 2008 FISMA review,
       as shown in Table 1.

       Table 1. MOUs in SSPs

                              Pass/Fail History Table
                    CA-3 Information System Connections
                                   MOUs/Contracts
                     Fiscal Year 2008                Fiscal Year 2009
                   Number Percent                  Number     Percent
       Pass           9          50%                  13          57%
       Fail           9          50%                  10          43%
       Total         18         100%                  23         100%

           In FY 2009, the review team found that 11 (48 percent) of the 23 in-scope
       systems verified and tested CA-3 control requirements compared with seven (39
       percent) of 18 in-scope systems tested during the FISMA 2008 review, as shown in
       Table 2.




10 .               OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                                       UNCLASSIFIED
                                             UNCLASSIFIED



    Table 2. Verified and Tested C-3 Control

                                 Pass/Fail History Table

                        CA-3 Information System Connections

                       Control Requirements Verified & Tested
                         Fiscal Year 2008                   Fiscal Year 2009
                     Number      Percent                 Number      Percent
     Pass               7             39%                   11           48%
     Fail               11            61%                   12           52%
     Total              18            100%                  23           100%

         Section CA-3, “Information System Connections,” of NIST SP 800-53A, Guide
    for Assessing the Security Controls in Federal Information System, July 2008, states the follow-
    ing:

              (i)       The organization identifies all connections to external information
                        systems (i.e., information systems outside of the accreditation bound-
                        ary);
              (ii)      The organization authorizes all connections from the external infor-
                        mation system through the use of system connection agreements;
                        and
              (iii)     The organization monitors and controls the system interconnections
                        on an ongoing basis.
        IRM/IA was not monitoring the SSPs to ensure that they were completed cor-
    rectly and that the CA-3 control was tested. Additionally, the toolkit was not updated
    timely and communicated to the appropriate systems owners prior to their complet-
    ing their annual testing.

         Systems connections, both internal and external, provide the electronic path for
    access and interfaces to both operating and application systems. Lack of formal
    identification, documentation, and testing of these connections might make these
    systems susceptible to security weaknesses that may impact their integrity and avail-
    ability.




OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009          11 .


                                             UNCLASSIFIED
                                     UNCLASSIFIED



          Recommendation 2: The Chief Information Security Officer, Bureau of In-
          formation Resource Management, and systems owners should:

              • Supplement the current information provided in the Certification and
              Accreditation (C&A) Main Toolkit and Inventory Toolkit with additional
              guidance to include at least the following supplemental directives:
                  ▫ Federal Information Security Management Act control CA-3 as a
                      requirement in the annual testing list of “critical” or “volatile” con-
                      trols for all moderate- and high-impact systems.
                  ▫ Guidance on how to test and verify that the control is operating ef-
                      fectively.
              • Be more proactive in reviewing System Security Plans and test results to
              ensure compliance with the methodology in the C&A Toolkits.



       Management Response and OIG Reply

           IRM concurred with the recommendation but stated that it did not believe it
       should identify a set of critical and volatile controls (C&VC) at the Department level
       that should be considered C&VC for all systems in the enterprise, and it proposed
       new criteria. The proposed new criteria would require that the C&A toolkits be
       modified to provide proper definition of C&VCs and that verification be performed
       to ensure that C&VCs are identified and tested. Based on the response, OIG consid-
       ers the recommendation resolved, pending further action.



       CONTINGENCY PLAN TOOLKITS SHOULD BE IMPROVED
           IRM/IA made improvements to its CP toolkits in response to two FY 2008
       FISMA report recommendations. In the third quarter of FY 2009, IRM/IA cre-
       ated the Contingency Plan Test Toolkit, which provided systems owners with clear
       direction on CP test requirements, including documenting test results. The Toolkit
       outlined an improved process and provided guidance systems owners needed to
       conduct CP tests appropriately. However, the review team found that some systems
       owners did not use the updated Toolkit and that the instructions on the Toolkit did
       not clearly communicate the requirements. Specifically, the review team found that
       CPs were not updated after contingency control failures following annual contin-
       gency planning test, when significant changes occurred, and when annual tests were
       performed. Exceptions noted for the 23 in-scope systems reviewed are as follows:



12 .             OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                                     UNCLASSIFIED
                                             UNCLASSIFIED



                  1. The Consular Data Information Transfer System (CDITS) had
              three CP controls that failed in the System Accreditation Report (SAR). The
              controls that failed should have been identified previously as having failed in
              FY 2008 testing. These failures were not noted in the CP. The CP was dated
              August 17, 2009, and the report was dated August 17, 2009.

                   2. The Global International Narcotics and Law Enforcement (GINL)
              system had 11 failed CP controls during the SAR dated July 31, 2008. The
              SSP was dated December 31, 2007, and included failed CP controls. In the
              comments section, the plan was to be approved by January 2008. The last
              CP was dated December 31, 2007, and had not been updated to reflect these
              failed controls. The last CP Test was dated May 22, 2008, and was a “walk-
              through,” even though the SSP and System Categorization Form (SCF)
              stated that GINL was a high-risk system. High-risk systems required a
              “functional” test in addition to a “walkthrough.”

                  3. The OpenNet Electronic State Configuration Resource (e-SCORE)
              system was identified in the SSP and SCF as a high risk system and had only
              a checklist and walkthrough test performed on May 28, 2009. The last Con-
              tingency Plan was dated March 21, 2007.

                   4. The Integrated Document Management & Analysis System
              (IDMAS) had a CP dated May 2, 2007 (contact names were updated Janu-
              ary 30, 2008). However, in the IDMAS Self Assessment dated May 10, 2007,
              CP-4, CP-5, and CP-7 were documented as “would fail.” IDMAS had two
              failed CP security controls in the SSP dated January 29, 2008. The Authority
              to Operate (ATO) dated May 30, 2008, had open CP findings, even though
              they were identified in the POA&M in May 2008.

                   5. The Public Key Infrastructure and BLADE (PKI/Blade) system
              had an Annual Assessment dated July 10, 2009, with no CP findings. In
              the POA&M report, PKI/Blade had open CP findings. The CP Test was
              a failover test, dated February 3, 2009, with POA&M findings. The CP
              was dated November 16, 2008. There was also a Significant Change to the
              system on May 22, 2009. A Significant Change to the system requires a new
              CP and test, according to NIST SP 800-84, Guide to Test, Training, and Exercise
              Programs for IT Plans and Capabilities, September 2006.

        OMB Circular A-130, Appendix III, Security of Federal Automated Information Re-
    sources, requires agencies to establish and periodically test the capability to continue
    providing services within a system based upon the needs and priorities of the system
    functionality. NIST SP 800-53, revision 2, further requires that agencies test and up-

OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009   13 .


                                             UNCLASSIFIED
                                     UNCLASSIFIED

       date their systems’ CPs at least annually. The Foreign Affairs Manual (FAM) provides
       guidance on CP, in addition to the guidance provided by the IRM/IA toolkits.

           The C&A CP Toolkit did not indicate that CPs were to be updated and reviewed
       by IA following failures in CP testing or failed testing of CP controls during the sys-
       tems’ annual or C&A tests. Additionally, the toolkit may have been updated too late
       for most of the systems owners to use during the FY 2009 testing to comply with
       OMB guidance and NIST requirements.

            Without adequate testing of contingency plans, the Department cannot ensure
       that systems will operate properly or in a timely manner during an emergency or dis-
       ruption of service. Loss of the Department’s IT systems could limit management’s
       ability to perform its missions, including its critical functions in service to the public.


          Recommendation 3: The Chief Information Security Officer, Bureau of In-
          formation Resource Management, and systems owners should take the follow-
          ing actions:

           •Update the Contingency Plan (CP) Toolkit to include the requirement that
             systems owners should review and revise the CP after any CP failed test
             results.
           •Update the CP exit criteria checklist to include verification by the Bureau of
             Information Resource Management, Office of Information Assurance
             (IRM/IA), that the systems owners:
              ▫ Conduct CP testing in accordance with the system’s National Institute
                  of Standards and Technology Special Publication 800-60, revision 1,
                  Guide for Mapping Types of Information and Information Systems to Security
                  Categgories,
                  Cate  ories, Au
                               August 2008, av
                                            availabilit
                                              ailabilityy impact level
                                                                 level as indicated on the Se-
                  curity Categorization Form (SCF).
              ▫ Create a Plan of Action and Milestones for each failed CP test/con-
                  trol.
              ▫ Update the CP to address each failed CP test/control (or provide clear
                  documentation explaining why no such update is necessary).
           •Update the exit checklists for the six documents listed to include verification
             by IRM/IA that each document is consistent with the SCF, and modify the
             SCF checklist to include verification by IA that these documents are up-
             dated if the impact level is revised upward. The documents are as follows:
              ▫ The System Security Plan
              ▫ The Contingency Plan
              ▫ The Security Control Assessment Plan (SCAP)
              ▫ The Certification Report
              ▫ The Authority To Operate
              ▫ Future Annual or Certification and Accreditation Tests


14 .             OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                                     UNCLASSIFIED
                                                UNCLASSIFIED



       Management Response and OIG Reply

           IRM concurred with the recommendation, stating that it plans to update the CP
       Toolkit to include requirements that system owners should review and revise the CP
       after any failed CP test results and also modify the CP exit criteria checklist to verify
       that the systems owners are conducting CP tests in accordance with NIST guidance.
       Based on the response, OIG considers the recommendation resolved, pending fur-
       ther action.



       MANAGEMENT OF CONFIGURATION MANAGEMENT CONTROLS
       PROCESS WAS NOT ADEQUATE
           The review team found that implementation and monitoring of configuration
       management (CM) controls, including the scanning process, were decentralized
       and shared among bureaus, Information Systems Security Officers (ISSO) , and
       IRM/IA. Over half of the 23 in-scope systems reviewed showed CM exceptions,
       based on reviews of SSPs, annual testing results, and routine scanning results as re-
       ported in iPost and then used for risk scoring. iPost routinely made scanning results
       available to systems owners, and the risk scoring reports and associated quarterly
       notifications to responsible system owners raised the visibility of CM weaknesses
       and provided roadmaps for correction. The resulting 90 percent reduction in overall
       risk during the past year was a graphic demonstration of iPost’s potential.

           The review team found, however, that these centralized controls were not fully
       integrated with decentralized bureau and system level controls and did not address
       significant risks as follows:
[Redacted] (b) (5)




   OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009   15 .


                                                UNCLASSIFIED
                                            UNCLASSIFIED
   [Redacted] (b) (5)




                FISMA1 requires each agency to develop minimally acceptable system configura-
            tion requirements and ensure compliance with them. Standard security configura-
            tions provide a baseline level of security, reduce risk from security threats and vul-
            nerabilities, and save time and resources. These controls allow agencies to improve
            system performance, decrease operating costs, and ensure public confidence in the
            confidentiality, integrity, and availability of government information. Agencies are
            to cite the frequency by which they implemented system configuration requirements
            and must document and provide NIST with any deviation from common security
            configurations.

                 Responsibility for the implementation of CM controls for the systems, operating
            systems, databases and network, including the scanning process, was decentralized,
            and the majority of the automated scanning results were not centralized and included
            in iPost for reporting and risk scoring.

                If reporting and risk scores in iPost are not accurately identifying the action risk
            to systems because the scores were limited to the Windows environment and did not
            include critical scan results, such as the application databases and the network (fire-
            wall, routers, and switches), Department data may be exposed to loss of integrity and
            confidentiality because configuration standards may not be implemented.

            1
                Pub. L. No. 107-347 § 3544(b)(2)(D)(iii).

16 .                    OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                                            UNCLASSIFIED
                                             UNCLASSIFIED




        Recommendation 4: The Chief Information Security Officer, Bureau of In-
        formation Resource Management, the Systems Integrity Director of Diplomat-
        ic Security, and the Deputy Chief Information Officer for Business Planning
        and Customer Service should:
         • Address the extent to which centralization versus decentralization of con-
             trol testing, remediation, and management should be readjusted to pro-
             duce better configuration management (CM).
         • Analyze and document the extent to which centralized automation of CM
             is an efficient and more cost-effective method than the current decentral-
             ized method.
         • Develop an Information Security Architecture that considers how to re-
             quest, review, document, and approve CM exceptions that may be neces-
             sary to allow the business of the Department of State to be conducted
             and provide criteria for the decision process.



    Management Response and OIG Reply

       IRM concurred with the recommendation to create an Information Security
    Architecture for the Information System Department. Based on the response, OIG
    considers the recommendation resolved, pending further action.



    SECURITY WEAKNESSES IN IPOST WERE NOT CAPTURED IN THE
    DEPARTMENT POA&M DATABASE
         IRM/IA managed a centralized POA&M Department database where security
    weaknesses from all the various bureaus were identified quarterly, monitored, and
    used to generate the quarterly reports for OMB reporting. However, systemic secu-
    rity weaknesses identified through the iPost/Site Scoring process were not entered
    into the Department’s POA&M database when they were not resolved immediately.
    Systemic weaknesses require a broader process/policy/budget change and not just
    technical mitigation of a particular weakness with existing resources. They may also
    include weaknesses that might require project management and/or coordinated ac-
    tion among multiple departments or bureaus to resolve.

         OMB Memorandum M-04-25, FY 2004 Reporting Instructions for the Federal Informa-
    tion Security Management Act, August 23, 2004, states that the POA&M process was
    designed to resolve IT security control weaknesses with prioritization to ensure that
    vulnerabilities are addressed in a timely and cost-effective manner. Memorandum

OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009   17 .


                                             UNCLASSIFIED
                                      UNCLASSIFIED

       M-04-25 includes a spreadsheet that should be used as a model to identify and de-
       velop specific weaknesses, points of contact, resources required, scheduled comple-
       tion dates, milestones with attendant completion dates, changes in milestones, and
       statuses.

           FISMA requires that agencies develop POA&Ms to capture weaknesses identi-
       fied during the C&A process, Office of Inspector General (OIG) or Chief Financial
       Officers (CFO) Act audits, and internal control reviews. These weaknesses need to
       be corrected and/or mitigated.

            The POA&M process facilitates the remediation of security weaknesses and
       provides a means of planning and monitoring corrective actions, categorizing risk,
       defining roles and responsibilities for security weakness resolution, assisting in iden-
       tifying the resource requirements necessary to mitigate the weaknesses, tracking and
       prioritizing resources, and informing decision makers. Also, NIST2 recommends that
       the POA&M be updated, stating, “The updates should occur at appropriate intervals
       to capture significant changes to the information system, but not so frequently as to
       generate unnecessary paperwork.”

           The iPost/Site Scoring process has been in production approximately a year, and
       the review team found that the process is evolving and has a lot of potential. How-
       ever, IA has not yet developed a process to report systems systemic weaknesses that
       are not remediated within a predefined time period into the centralized POA&M
       database.

           The centralized POA&M did not include iPost systemic security weaknesses.
       Security weaknesses that remain unresolved for an extended period of time may
       increase vulnerabilities and exposures that could be exploited by intruders, and they
       may impact the integrity, availability, and confidentiality of the Department’s systems
       and the network infrastructure.


           Recommendation 5: The Chief Information Security Officer, Bureau of In-
           formation Resource Management, should work with systems owners to accom-
           plish the following:
                •Record systemic security weaknesses identified through the iPost/Site
                Scoring process as Plan of Action and Milestones (POA&M) actions to
                ensure the weaknesses are tracked, prioritized, and remediated.
                •Report POA&M actions on a quarterly basis for sites that have low scores,
                requiring them to raise those scores.
                •Report POA&M actions for risk covered by iPost scoring “exceptions.”


       2
           NIST SP 800-37, Guide for the Security Certification and Accreditation of Federal
       Information Systems.
18 .              OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                                      UNCLASSIFIED
                                             UNCLASSIFIED

    Management Response and OIG Reply

        IRM indicated concurrence with the recommendation to record systemic security
    weaknesses identified in iPost in the Department POA&M database, but it expressed
    “reservations” about the statement that all technical weaknesses must be closed and
    that iPost scoring is not part of the POA&M process. Based on the response, OIG
    considers this recommendation resolved, pending further action.



    INFORMATION SECURITY WEAKNESSES WERE NOT ADEQUATELY
    MANAGED
        IRM/IA and the respective bureaus need to improve management of security
    weaknesses. The review team found that policies, procedures, and tools are in place
    to track, maintain, update, validate, and prioritize security weaknesses at each of the
    respective bureaus. Also, quarterly updates from the respective bureaus’ databases
    were consolidated in the Department database that was managed by IA. However,
    the review team found that active monitoring, validation, and implementation of
    remediation steps to correct the security weaknesses were not performed by the
    respective bureaus or by IA, as was reported in the FY 2008 FISMA report.

        POA&Ms were not updated when there was a change in status. The review team
    found that the FY 2009 third quarter Corrective Action Plan (CAP) that was sent
    to OMB showed that the Bureau of Consular Affairs (CA) had 28 POA&M actions
    with “120 days overdue” dates, which was over 50 percent of the POA&M action
    items listed on the CAP report. Discussions with management and a review of the
    CA POA&M database revealed that many of these items had been corrected, but
    the POA&M status was not updated before these items were reported to CAP and
    issued to OMB.

         FISMA requires that agencies develop POA&Ms to capture weaknesses identi-
    fied during the C&A process, OIG or CFO Act audits, and internal control reviews.
    These weaknesses need to be corrected and/or mitigated. The POA&M process
    facilitates the remediation of security weaknesses and provides a means for planning
    and monitoring corrective actions, categorizing risk, defining roles and responsibili-
    ties for security weakness resolution, assisting in identifying the resource require-
    ments necessary to mitigate the weaknesses, tracking and prioritizing resources, and
    informing decision makers. Also, NIST3 recommends that the POA&M be updated,
    stating, “The updates should occur at appropriate intervals to capture significant
    changes to the information system, but not so frequently as to generate unnecessary
    paperwork.”
    3
         NIST SP 800-37.
OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009   19 .


                                             UNCLASSIFIED
                                     UNCLASSIFIED



           According to the FAM:4

               Quarterly, systems owners must review and update their plan-of-action-and-
               milestones (POA&M) tool:

               (1)      POA&M reports must list residual risks and remediation efforts asso-
               ciated with the information systems under their control (see 5 FAM 814 for
               definition of system owner);

               (2)    Failure to submit quarterly POA&M updates may result in loss of
               funding and could lead to loss of accreditation and termination of the pro-
               gram.

           According to IA management, there had been several personnel changes in the
       functional area that managed the POA&M process. As a result, there had been a lack
       of oversight to ensure that bureaus were in compliance with POA&M policies and
       guidelines.

           Security weaknesses that remain unresolved for an extended period of time may
       increase vulnerabilities and exposures that could be exploited by intruders and may
       impact the integrity, availability, and confidentiality of systems and the network in-
       frastructure. Without a POA&M process that validates that security weaknesses were
       remediated timely, management could not ensure that its systems were adequately
       secured and protected.


           Recommendation 6: The Chief Information Security Officer, Bureau of In-
           formation Resource Management, should work with systems owners to imple-
           ment the following:

           •   Coordinate with systems owners to develop a method that ensures that
               each systems owner provides timely and complete updates to the Plan
               of Action and Milestones (POA&M) databases and to relevant officials,
               including the Bureau of Information Resource Management, Office of
               Information Assurance (IA), on a regular basis (Recommendation 4 in the
               FY 2008 FISMA report).
           •   Ensure that IA management implements a process to validate informa-
               tion in the Department of State POA&M database and performs a quality
               review on the Corrective Action Plan report before it is submitted to the
               Office of Management and Budget.



       4
           5 FAM 1063.5c, “Reporting.”


20 .             OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                                     UNCLASSIFIED
                                             UNCLASSIFIED


    Management Response and OIG Reply

         IRM concurred with the recommendation, stating that it will perform a quality
    assurance review before submitting the CAP to OMB and will provide “formal quar-
    terly grade letters” to bureaus on the quality of their POA&M process implementa-
    tion. Based on the response, OIG considers the recommendation resolved, pending
    further action.



    IT AUDIT-RELATED SECURITY WEAKNESSES WERE NOT
    ADEQUATELY MANAGED
        The review team noted there were no Standard Operating Procedures (SOP)
    for managing IT-related security weaknesses identified during CFO and OIG audits
    and GAO and OMB Circular A-123, Management’s Responsibility for Internal Controls,
    reviews:

         •    OIG provided an extract of its Compliance Analysis and Tracking Sys-
              tem (CATS) database to IRM/IA using codes that were provided by IRM/
              IA. The CATS database did not include an attribute to indicate whether an
              OIG recommendation was IT related. Because of the lack of this identi-
              fier, IRM/IA had to manually review the extract provided by OIG and
              then import the recommendations deemed to be related to IT into IRM/IA’s
              Department-level (POA&M) database. There was no evidence that a root
              cause analysis was performed and that these recommendations were action-
              able with milestones and scheduled completion dates.

         •    Audits conducted by external auditors were not included in the CATS data-
              base. According to the OIG, IT recommendations from the A-123 reviews
              were provided directly to IRM, and IRM was responsible for distributing the
              recommendations to the responsible bureaus and importing them into the
              Department POA&M database. No formal documented procedures existed
              to process these recommendations, and there was no evidence that a root
              cause analysis was performed and that these recommendations were action-
              able with milestones and scheduled completion dates.

         •    IT audit recommendations resulting from CFO audits of IT general and
              application controls for financial accounting application systems were sent
              directly to IRM/IA and imported into the Department’s POA&M data-
              base. There was no evidence that a root cause analysis was performed and
              that these recommendations were actionable with milestones and scheduled
              completion dates.

OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009   21 .


                                             UNCLASSIFIED
                                      UNCLASSIFIED
           The review team found that no formal process and no centralized process for
       identifying and managing IT-related audit findings existed. Overlaps were not identi-
       fied and jointly managed, and recommendations that impacted both IT and business
       processes were not analyzed for root cause and addressed in a collaborative way by
       both IRM/IA and the respective bureaus. In most instances, the review team found
       that recommendations or Notices of Potential Recommendations (NFR) were not
       analyzed for root cause and actionable with milestones before they were imported
       into the POA&M Department database.

            FISMA requires that agencies develop POA&Ms to capture weaknesses identi-
       fied during the C&A process, OIG and CFO Act audits, and internal control reviews.
       These weaknesses need to be corrected and/or mitigated. The POA&M process
       facilitates the remediation of security weaknesses and provides a means for planning
       and monitoring corrective actions, categorizing risk, defining roles and responsibili-
       ties for security weakness resolution, assisting in identifying the resource require-
       ments necessary to mitigate the weaknesses, tracking and prioritizing resources, and
       informing decision makers. Also, NIST recommends that the POA&M be updated,
       stating, “The updates should occur at appropriate intervals to capture significant
       changes to the information system, but not so frequently as to generate unnecessary
       paperwork.”

          The FAM5 defines responsibilities of the Assistant Secretary for Resource Man-
       agement and Chief Financial Officer that include the following:

               (7) Provides advice and technical assistance in developing necessary guides
               for performing risk assessments and management control reviews and de-
               signing management control systems;

               (8) Approves subsequent plans for risk assessments and reviews of manage-
               ment control systems;

               (9) Establishes and maintains a program of quality assurance over manage-
               ment control evaluations, reviews, and follow-up corrective actions;

               (10) Recommends Management Control Steering Committee action on pro-
               posed management control designs;

               (11) Ensures that appropriate follow-up action is taken on management
               control deficiencies and financial losses by providing necessary guidance in
               designing needed additional controls;

               (12) Maintains a continuing liaison with and awareness of the activities of
               other Department elements having responsibilities for activities that contrib-
               ute to the goals and objectives of the management control program; and
       5
           2 FAM 022.3, “The Assistant Secretary for Resource Management and Chief Financial
       Officer.”
22 .              OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                                      UNCLASSIFIED
                                             UNCLASSIFIED


              (13) Reviews Government Accountability Office, Inspector General, con-
              tractor, or management reports that apply in whole or in part to management
              controls; reviews the analyses that Information Resource Management (IRM)
              performs, which focuses on automated systems (general and application con-
              trols); and ensures that risk assessments, management control reviews, and
              determinations of deficiencies consider these sources of information.

         The OIG database did not have an attribute that uniquely tagged each IT recom-
    mendation to facilitate the process for IRM/IA to extract only IT-related recommen-
    dations in the Department POA&M database. Each OIG functional area submitted
    its IT-related audit findings or recommendations to IRM/IA, and no formal SOP
    existed to identify root causes and turn these weaknesses into POA&M actionable
    items.

        Some IT-related recommendations may not be tracked in the OIG database and
    imported into the POA&M database. Additionally, there may be duplicate efforts
    or lack of efforts to jointly manage and implement controls to remediate IT-related
    findings from OIG, GAO, and CFO audits and A-123 reviews. Without an effec-
    tive process that ensured that these security weaknesses were tracked and remediated
    timely, management did not have assurance that its systems were adequately secured
    and protected. This may impact the integrity, availability, and confidentiality of sys-
    tems and the environment.


        Recommendation 7: The Chief Financial Officer, Bureau of Information
        Resource Management, and systems owners should work together to develop,
        publish, and implement detailed Standard Operating Procedures (SOP) for ad-
        dressing information technology (IT) audit-related weaknesses and findings.
        These SOPs should define the following:

             •    Clear objectives and criteria on what should be actionable and tracked
                  in the Office of Information Assurance Plan of Action and Milestones
                  (POA&M) Department of State database and how duplicated findings
                  or findings that include business processes and multiple bureaus should
                  be addressed in a collaborative effort among various parties.
             •    Responsibilities for each functional area in reviewing the findings or
                  recommendations or notices of potential findings and turning them
                  into actionable items to include root cause analyses, proposed action-
                  able solutions, responsible parties for implementing the solutions, and
                  milestones/tasks, including reasonable, scheduled completion dates,
                  before they are imported into the POA&M Department database.




OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009   23 .


                                             UNCLASSIFIED
                                     UNCLASSIFIED

       Management Response and OIG Reply

           IRM concurred with the recommendation to work with CFO and Circular A-123
       auditors to create SOPs for addressing information technology audit-related weak-
       nesses, as recommended. Based on the response, OIG considers the recommenda-
       tion resolved, pending further action.



       SECURITY AWARENESS TRAINING REQUIREMENTS WERE NOT
       ENFORCED
               The Department has developed and implemented information security poli-
       cies and procedures, including several information security awareness programs, to
       comply with NIST requirements and OMB guidance. The policy requires that all
       users take the web-based Cyber Security Awareness Course within 10 days of be-
       ing granted log-in access to OpenNet (Department of State Network). The review
       team found that all users with access to OpenNet did not take the PS800 Cyber
       Security Awareness Course within 10 days of access to OpenNet or annually by their
       course anniversary date. Users were reminded of this requirement, most recently in
       08 All Diplomatic and Consular Posts telegram (ALDAC) 087187 and Department
       Notice 2008_08_060. The review team found that enforcement of this requirement
       was not uniform from site to site. The Department used Active Directory (AD) to
       identify all OpenNet users who were required to take the course. OIG reported to
       OMB in FY 2008 that 55,000 (81 percent to 95 percent) employees and contractors
       had taken the Cyber Security Awareness Course. IRM reported that as of Septem-
       ber 1, 2009, the State Department had 70,000 OpenNet users, and the Bureau of
       Diplomatic Security reported that 67,800 users (97 percent) had taken the Cyber
       Security Awareness course.

           FISMA requires that agencies have sufficiently trained personnel to assist the
       agency in complying with FISMA and related policies, procedures, standards, and
       guidelines. FISMA also states that the required agency-wide information security
       program “shall include security awareness training to inform personnel, including
       contractors, of information security risks associated with their activities, and their
       responsibilities in complying with agency policies and procedures designed to reduce
       these risks.” NIST SP 800-53, revision 2, recommends that basic security awareness
       training be provided to all new information systems users (employees and contrac-
       tors) before granting them log-in privileges to the system. It also states that employ-
       ees should be provided with security awareness training annually to remind them of
       their responsibilities to protect information assets.

          Enforcement of the PS800 Cyber Security Awareness course completion require-
       ment was a decentralized function at the ISSO level. The Department’s policy to
24 .             OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                                     UNCLASSIFIED
                                             UNCLASSIFIED

    revoke a user’s access to the network if the course was not taken within 10 days of
    access to OpenNet or annually by the employee’s course anniversary date was not
    mandatorily enforced by all ISSOs. The existing link between AD and the PS800
    Cyber Security Database did not ensure that all users added to AD were also in the
    database. The ISSOs were responsible for notifying employees within their function-
    al area of responsibility of the requirement to complete the course.

        Security awareness training educates employees about the methods the agency
    has implemented to protect information assets, the controls implemented, and the
    risks to the organization if those controls are compromised. Employees who are
    not properly trained about computer security may cause, contribute to, or become
    victims of vulnerabilities or security breaches, such as e-mail exploits, account or
    password sharing, inadequate safeguarding of passwords or computer resources,
    Internet misuse, corporate espionage, and social engineering.



        Recommendation 8: The Director of the Foreign Service Institute and the
        Director of the Office of Computer Security, Bureau of Diplomatic Security,
        should:
         •Implement methods to globally enforce the security awareness policies to
           suspend a user’s access if the Cyber Security Awareness Course is not taken
           within 10 days of access to the Department of State Network or annually by
           the employee’s anniversary date.
         •Enhance already existing connectivity between Active Directory (AD) and the
           Course so that each time a user is created in AD, the user’s identification is
           also registered in the Cyber Security database per Diplomatic and Consular
           Posts telegram ALDAC 087187 and Department Notice 2008_08_060.
         •Provide additional monitoring tools for the Information Systems Security Of-
           ficers to ensure user compliance with established policies.




    Management Response and OIG Reply

        IRM concurred with the recommendation, stating that it will implement methods
    globally to enforce the security awareness policy, integrate information in the Active
    Directory with information in the Cyber Security Awareness database, and provide
    ISSOs with monitoring tools to ensure compliance with Information Security Aware-
    ness policies. Based on the response and the actions already taken, OIG considers
    the recommendation resolved, pending further action.


OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009   25 .


                                             UNCLASSIFIED
                                     UNCLASSIFIED



       ALL EMPLOYEES WITH SIGNIFICANT SECURITY RESPONSIBILITIES
       DID NOT ATTEND REQUIRED ROLE-BASED TRAINING
           The Department developed and implemented a “role-based information assur-
       ance training program” to meet the federal requirements under FISMA and OPM
       guidance. The FY 2007 Information Assurance Training Plan identified and provided
       specific training courses for the following identified roles: Executives, Senior Level
       Managers, Program Managers and IT Security Managers, Auditors, Technical Security
       Personnel, and Other IT Security Roles.

           All training records were stored in an OPM-approved centralized system, the
       “Student Training Management System” (STMS). This system tracked all registra-
       tions and course completions for only courses identified in the Information Assur-
       ance Plan. However, it did not track courses that are Department paid that employ-
       ees take yearly to meet continuing professional education requirements. Management
       did not receive a report periodically showing which training courses employees with
       significant security responsibilities had attended. Of the sampled selections of 15
       U.S.-based ISSOs with significant security responsibilities, five (33.33 percent) had
       not attended any training courses in the past 3 years, two of whom were branch
       chiefs. All 14 sampled international ISSOs had attended at least one role-based train-
       ing course in the past 3 years per the plan’s requirement. This year, the CIO reported
       to OMB that only 24 percent (1,008 of 4,135) of the employees and contractors with
       significant security responsibilities had attended role-based training in FY 2008.

               OMB guidelines and NIST SP 800-16, Information Technology Training Require-
       ments: Role- and Performance-Based Model, April 1998, require that agencies identify
       employees with significant security responsibilities and provide specialized training.
       FISMA mandates that agencies implement IA training to enhance awareness of all
       personnel and to ensure the protection of the agency’s information assets. Among
       the CISO responsibilities is the need to ensure sufficient IA training for all Depart-
       ment systems users. This includes general awareness training, as well as specific role-
       based training, for those with significant information security responsibilities. The IA
       training plan defined guidelines for Department information system security aware-
       ness and training. In addition, the plan provided guidance on identifying employees
       with significant information security responsibilities and the recommended training
       associated with these responsibilities.

          The review team found that controls did not exist to identify and monitor an-
       nually training for employees with significant security responsibilities. Department
       managers were not provided periodic reports from the STMS that showed require-
       ments and compliance with training requirements.

26 .             OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                                     UNCLASSIFIED
                                             UNCLASSIFIED



         Employees with significant security responsibilities were tasked with implement-
    ing, enforcing, and monitoring compliance with the Department’s security policies
    and guidelines. Without ensuring that annual training needs are met, these personnel
    may be unaware of their security responsibilities or be improperly prepared to effec-
    tively perform those duties.

        This increases the risk of a computer security incident that could result in loss,
    destruction, or misuse of sensitive data and resources.



        Recommendation 9: The Bureau of Diplomatic Security Assistant Director
        of Training, the Bureau of Information Resource Management Chief Informa-
        tion Security Officer, and bureau systems owners should work together to:

         •Improve methods to identify individuals with significant security
              responsibilities;
         •Notify these individuals, including employees, supervisors, managers,
             and executives, of their role-based training requirement;
         •Monitor compliance with the training requirements;
         •Provide management with reports that show compliance with the training
             requirement; and
         •Modify the Student Training Management System to capture other training
             programs, such as those paid for by the Department, to meet Continuing
             Professional Education requirements (for example, CISSP designation).




    Management Response and OIG Reply

        IRM concurred with the recommendation, stating it will consider methods to
    identify who has significant security responsibilities and develop methods to commu-
    nicate and monitor compliance with training requirements. Based on the response,
    OIG considers the recommendation resolved, pending further action.



    INVENTORY RECORDS WERE MATERIALLY CORRECT
        In response to four FY 2008 FISMA report recommendations relating to inven-
    tory systems management and oversight of contractor systems, IRM/IA modified its


OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009   27 .


                                             UNCLASSIFIED
                                     UNCLASSIFIED


       procedures for collecting, analyzing, and managing inventory systems. The review
       team found that IRM/IA had implemented several controls procedures that were
       reviewed and verified during the team’s analysis of 3rd and 4th quarter inventory
       records. Specifically, the following controls were implemented:

          •   The inventory toolkits were updated to provide guidance on inventory identi-
              fication, analysis, and recording. The FY 2009 inventory data call provided in-
              creased focus on defining and identifying “contractor systems” and “system
              connections” that were missing in FY 2008.

          •   The FY 2009 inventory data call was initiated in early November 2008.

          •   Routine quarterly inventory data calls were made, and they reminded bureau
              and post systems owners to report new systems and significant changes to
              systems to ensure the accuracy of their FISMA-reportable inventory.

            FISMA requires the Department to keep an inventory of information systems.
       OMB Circulars A-123, A-127 (Financial Management Systems), and A-130 (Management
       of Federal Information Resources) require agencies to develop and maintain an informa-
       tion systems inventory, document the types of information systems required to be
       reported, and detail how and how often those reports must be submitted to OMB.
       FIPS Publication 199 requires that agencies categorize their information systems as
       low-, moderate-, or high-impact. Systems with privacy-related information automati-
       cally raise the systems to the level of “Major Information Systems,” thereby needing
       to be reported in the information system inventory.

           In FY 2009, the inventory process included quarterly (as opposed to annually in
       FY 2008) data calls to identify, qualify, and quantify all information systems in use
       at each bureau and overseas post. The process was intended to identify the universe
       of information systems and IT assets such as networks (general support systems),
       applications, and websites. IRM/IA used the results of the data call to populate two
       primary databases: the IT Asset Baseline (ITAB) and the FISMA Inventory Data-
       base. ITAB stored the universe of the Department’s IT assets inventory and was
       used to track and report the IT assets managed by the Department. The FISMA
       Inventory Database stored information on identified major information systems that
       are FISMA reportable. IRM/IA analyzed the data in the ITAB database with the as-
       set owner in order to identify the major information systems that should be reported
       in the inventory as those evaluated for FISMA compliance.

           The inventory information included in the Department’s 3rd quarter inventory
       records was the basis for selection of the systems that were used to perform tests
       based on OMB guidelines. Selected for in-scope testing were 23 high- and moderate-


28 .             OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                                     UNCLASSIFIED
                                             UNCLASSIFIED



    impact systems, consisting of 18 from the prior year’s in-scope sample and five ad-
    ditional systems, which the review team assumed contained PII data. The 18 systems
    from the prior year were included in the sample because the review team believed
    that an analysis of these systems would provide a method for judging what improve-
    ments had been made in the C&A process and also to verify implementation of the
    FY 2008 recommendations. The review team found the inventory to be materially
    correct with no management recommendations.



    INCIDENT MANAGEMENT PROGRAM WAS ADEQUATELY MANAGED
        The review team found that even though incident response management was
    decentralized, well-defined procedures existed and the process was well coordinated
    and operated effectively in the past 2 years. The computer incident response team
    (CIRT), within DS, was the center of the Department’s incident response program.
    CIRT’s efforts to safeguard the Department’s networks involved collaboration and
    information sharing with other program officials within DS, including the Cyber
    Threat Analysis Division (CTAD) and the Virus Incident Response Team (VIRT). In
    addition, CIRT officials coordinated with IRM’s Firewall Team and Enterprise Net-
    work Management Operations Center, systems managers, ISSOs, regional computer
    security officers, and the privacy team. CIRT worked cohesively with these entities
    to identify threats; monitor networks; identify, analyze, and report anomalies; imple-
    ment corrective action; and identify trends to improve the security posture for the
    Department.

         FISMA requires agencies to establish procedures for detecting, reporting, and re-
    sponding to security incidents. NIST SP 800-61, revision 1, Computer Security Incident
    Handling Guide, March 2008, provides guidance to agencies on establishing an effec-
    tive incident response program. The guidance focuses on four phases: preparation,
    detection and analysis, containment/eradication/recovery, and post-incident activity.
    OMB Circular A-130, Appendix III, requires agencies to develop SSPs. SSPs are an
    overview of the security requirements of the system and describe the controls in
    place or planned to meet those requirements. The SSPs also delineate the responsi-
    bilities for and the expected behavior of all individuals who access the system. The
    SSP is organized into three general classes of security controls: management, opera-
    tional, and technical. Incident reporting is part of the operational security controls.

        To verify that security incidents were reported timely to the US-CERT,6 as
    required by Department policy, the review team obtained and reviewed DS CIRT
    6
       US-CERT is the operational arm of the National Cyber Security Division at the Department of
    Homeland Security.

OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009        29 .


                                             UNCLASSIFIED
                                      UNCLASSIFIED



       monthly and daily reports for the months of October 2008 and January and April
       2009. The review team found that in October, 14 PII tickets were identified and
       reported to US-CERT, as required; in January, five Information Security tickets were
       identified and reported to US-CERT, as required; and in April, five PII tickets and
       one unauthorized access ticket were reported to US- CERT. A few minor exceptions
       were identified in April, but the review team was able to resolve the issues with sup-
       porting e-mail documentation from CIRT.



       PRIVACY PROGRAM IS IN COMPLIANCE WITH FEDERAL
       REQUIREMENTS AND OMB GUIDANCE
           At the Department of State, the Assistant Secretary for Administration is the
       Senior Agency Official for Privacy and is responsible for implementing privacy
       programs. The Privacy Division managed and operated a privacy program in com-
       pliance with OMB policies and guidance and developed and documented adequate,
       compliant policies for safeguarding privacy-related information. Privacy training is
       provided to employees but is not mandatory.

           Privacy guidance and provisions for all Federal agencies are described in section
       208 of the E-Government Act of 20027 and OMB Memorandum M-03-22, Guid-
       ance for Implementing the Privacy Provisions of the E-Government Act of 2002, September
       26, 2003. Per the E-Government Act of 2002, agencies are required to conduct
       privacy impact assessments (PIA) for electronic information systems and collection
       and make the assessments publicly available. Further, the agency must post privacy
       policies on agency Web sites and translate privacy policies into a standardized ma-
       chine-readable format. OMB Memorandum M-03-22 provides additional guidance
       to the agencies and directs agencies to conduct reviews of how information about
       individuals is handled within their respective agency when they use electronic means
       to collect new information or when agencies develop or buy new systems to handle
       collections of PII.

           The Privacy Division created a new PIA template with a guide to assist sys-
       tems owners in developing required PIAs and tools for identifying and mitigating
       privacy risks. The review team obtained and reviewed the new PIA template and
       found that it addressed all applicable privacy OMB-required content. For each of
       the 23 in-scope systems, the review team determined whether a PIA should have
       7
           Pub. L. No. 107-347, 44 U.S.C., ch. 36.




30 .              OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                                      UNCLASSIFIED
                                             UNCLASSIFIED



    been completed, the new PIA template was used, and the template was completed
    correctly in accordance with the guidelines. The review team found that five of the
    in-scope systems did not contain PII and did not require a PIA; eight systems used
    the new template and were completed correctly; and of the eight that did not use
    the new template, three of these eight did not state clearly what PII data was col-
    lected. According to the Privacy Officer, a program was implemented in response
    to the FISMA FY 2008 review to update the PIA template in FY 2009 and to use a
    3-year approach to migrate all existing PIAs to the updated template as the systems
    are recertified. Based on advice from the review team, the Privacy Officer agreed to
    accelerate implementation of the new PIA template.




OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009   31 .


                                             UNCLASSIFIED
                           UNCLASSIFIED




-
32 .   OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                           UNCLASSIFIED
                                             UNCLASSIFIED




                     LIST OF RECOMMENDATIONS

    Recommendation 1: The Chief Information Security Officer and the Bureau of
      Information Resource Management (IRM) should:
          • Work with systems owners to identify critical and volatile controls to test and
            use National Institute of Standards and Technology (NIST) Special Publica-
            tion (SP) 800-53, revision 3, Recommended Security Controls for Federal Information
            Systems, August 2009, P1 priority controls as a starting point.
          • Establish procedures to verify that volatile controls are correctly determined
            and tested.
          • Expand the IRM quality control program to include analysis of how well
            certification testing addresses critical, volatile, and inherited controls and to
            also determine whether all controls are tested over a 3-year certification and
            accreditation cycle.
          • Review inherited control selection procedures and update policy in the Tool-
            kit to ensure that misunderstandings about critical but inherited control test-
            ing responsibility are resolved.
          • Provide formal guidance on which NIST SP 800-53, revision 3, controls may
            be inherited from OpenNet and the conditions under which such inheritance
            will be approved.



    Recommendation 2 : The Chief Information Security Officer, Bureau of Informa-
      tion Resource Management, and systems owners should:

          • Supplement the current information provided in the Certification and Ac-
            creditation (C&A) Main Toolkit and Inventory Toolkit with additional guid-
            ance to include at least the following supplemental directives:

              ▫        Federal Information Security Management Act control CA-3 as a re
                       quirement in the annual testing list of “critical” or “volatile” controls
                       for all moderate- and high-impact systems.

              ▫        Guidance on how to test and verify that the control is operating ef
                       fectively.


OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009      33 .


                                             UNCLASSIFIED
                                    UNCLASSIFIED



           • Be more proactive in reviewing System Security Plans and test results to en-
             sure compliance with the methodology in the C&A Toolkits.

       Recommendation 3 : The Chief Information Security Officer, Bureau of Informa-
         tion Resource Management, and systems owners should take the following ac-
         tions:
            • Update the Contingency Plan (CP) Toolkit to include the requirement that
              systems owners should review and revise the CP after any CP failed test re-
              sults.
            • Update the CP exit criteria checklist to include verification by the Bureau
              of Information Resource Management, Office of Information Assurance
              (IRM/IA), that the systems owners:
               ▫ Conduct CP testing in accordance with the system’s National Institute
                 of Standards and Technology Special Publication 800-60, revision 1,
                 Guide for Mapping Types of Information and Information Systems to Security Cat-
                 egories, August 2008, availability impact level as indicated on the Security
                 Categorization Form (SCF).
               ▫ Create a Plan of Action and Milestones for each failed CP test/control.
               ▫ Update the CP to address each failed CP test/control (or provide clear
                 documentation explaining why no such update is necessary).
           • Update the exit checklists for the six documents listed to include verification
             by IRM/IA that each document is consistent with the SCF, and modify the
             SCF checklist to include verification by IA that these documents are updated
             if the impact level is revised upward. The documents are as follows:
               ▫ The System Security Plan
               ▫ The Contingency Plan
               ▫ The Security Control Assessment Plan (SCAP)
               ▫ The Certification Report
               ▫ The Authority To Operate
               ▫ Future Annual or Certification and Accreditation Tests
       Recommendation 4: The Chief Information Security Officer, Bureau of Informa-
         tion Resource Management, the Systems Integrity Director of Diplomatic Secu-
         rity, and the Deputy Chief Information Officer for Business Planning and Cus-
         tomer Service should:
           • Address the extent to which centralization versus decentralization of control
             testing, remediation, and management should be readjusted to produce bet-
             ter configuration management (CM).

34 .            OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                                    UNCLASSIFIED
                                             UNCLASSIFIED



          • Analyze and document the extent to which centralized automation of CM is
            an efficient and more cost-effective method than the current decentralized
            method.
          • Develop an Information Security Architecture that considers how to request,
            review, document, and approve CM exceptions that may be necessary to al-
            low the business of the Department of State to be conducted and provide
            criteria for the decision process.
    Recommendation 5: The Chief Information Security Officer, Bureau of Informa-
      tion Resource Management, should work with systems owners to accomplish the
      following:
           • Record systemic security weaknesses identified through the iPost/Site Scor-
             ing process as Plan of Action and Milestones (POA&M) actions to ensure
             the weaknesses are tracked, prioritized, and remediated;
           • Report POA&M actions on a quarterly basis for sites that have low scores,
             requiring them to raise those scores.
           • Report POA&M actions for risk covered by iPost scoring “exceptions.”
    Recommendation 6: The Chief Information Security Officer, Bureau of Informa-
      tion Resource Management, should work with systems owners to implement the
      following:

           • Coordinate with systems owners to develop a method that ensures that each
             systems owner provides timely and complete updates to the Plan of Action
             and Milestones (POA&M) databases and to relevant officials, including the
             Bureau of Information Resource Management, Office of Information As-
             surance (IA), on a regular basis (Recommendation 4 in the FY 2008 FISMA
             report).

           • Ensure that IA management implements a process to validate information
             in the Department of State POA&M database and performs a quality review
             on the Corrective Action Plan report before it is submitted to the Office of
             Management and Budget.

    Recommendation 7: The Chief Financial Officer, Bureau of Information Resource
      Management and systems owners should work together to develop, publish, and
      implement detailed standard operating procedures (SOP) for addressing informa-
      tion technology (IT) audit-related weaknesses and findings. These SOPs should
      define the following:

          • Clear objectives and criteria on what should be actionable and tracked in the
            Office of Information Assurance Plan of Action and Milestones (POA&M)

OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009   35 .


                                             UNCLASSIFIED
                                     UNCLASSIFIED



               Department of State database and how duplicated findings or findings that
               include business processes and multiple bureaus should be addressed in a
               collaborative effort among various parties.

           •   Responsibilities for each functional area in reviewing the findings or recom-
               mendations or notices of potential findings and turning them into action-
               able items to include root cause analyses, proposed actionable solutions,
               responsible parties for implementing the solutions, and milestones/tasks,
               including reasonable, scheduled completion dates, before they are imported
               into the POA&M Department database.

       Recommendation 8: The Director of the Foreign Service Institute and the Direc-
         tor of the Office of Computer Security, Bureau of Diplomatic Security should:
            • Implement methods to globally enforce the security awareness policies to
              suspend a user’s access if the Cyber Security Awareness Course is not taken
              within 10 days of access to the Department of State Network or annually
              by the employee’s anniversary date.
            • Enhance already existing connectivity between Active Directory (AD) and
              the Course so that each time a user is created in AD, the user’s identification
              is also registered in the Cyber Security database per Diplomatic and Con-
              sular Posts telegram ALDAC 087187 and Department Notice 2008_08_060.
            • Provide additional monitoring tools for the Information Systems Security
              Officers to ensure user compliance with established policies.
       Recommendation 9: The Bureau of Diplomatic Security Assistant Director of
         Training, the Bureau of Information Resource Management Chief Information
         Security Officer, and bureau systems owners should work together to:
            • Improve methods to identify individuals with significant security responsi-
              bilities;
            • Notify these individuals, including employees, supervisors, managers, and
              executives, of their role-based training requirement;
            • Monitor compliance with the training requirements;
            • Provide management with reports that show compliance with the training
              requirement; and
            • Modify the Student Training Management System to capture other training
              programs, such as those paid for by the Department, to meet Continuing
              Professional Education requirements (for example, CISSP designation).




36 .             OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                                     UNCLASSIFIED
                                             UNCLASSIFIED




                                        ABBREVIATIONS

    AD                             Active Directory
    ATO                            Authority to Operate
    C&A                            certification and accreditation
    CA                             Bureau of Consular Affairs
    CAP                            Corrective Action Plan
    cdits                          Consular Data Information Transfer System
    CFO                            Chief Financial Officers
    CIO                            Chief Information Officer
    CISO                           Chief Information Security Officer
    CIRT                           Computer Incident Response Team
    CM                             Configuration Management
    CNSS                           Committee on National Security Systems
    CP                             Contingency Plan
    CPE                            Continuing Professional Education
    Department                     Department of State
    DS                             Diplomatic Security
    FAM                            Foreign Affairs Manual
    FIPS                           Federal Information Processing Standards
    FISMA                          Federal Information Security Management Act of 2002
    IA                             Office of Information Assurance
    IDS                            Intrusion Detection Systems
    IG                             Inspector General
    IRM                            Information Resource Management
    IRM/IA                         Office of Information Assurance, IRM
    ISA                            Interconnection Security Agreement


OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009   37 .


                                             UNCLASSIFIED
                                     UNCLASSIFIED



       ISSO                    Information System Security Officers
       IT                      information technology
       NIST                    National Institute of Standards and Technology
       MOU/MOA                 Memorandum of Understanding/Agreement
       OIG                     Office of Inspector General
       OMB                     Office of Management and Budget
       OpenNet                 Department of State internal network (intranet)
       OPM                     Office of Personnel Management
       PIA                     Privacy Impact Assessment
       PII                     Personally Identifiable Information
       POA&M                   plan of action and ,ilestones
       PTA                     Privacy Threshold Analysis
       RM                      Bureau of Resource Management
       SAR                     System Accreditation Report
       SCAP                    Security Control Assessment Plan
       SCF                     System Categorization Form
       SMS                     Systems Management Server
       SP                      Special Publication
       SSP                     System Security Plan
       US-CERT                 United States Computer Emergency Readiness Team




38 .             OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                                     UNCLASSIFIED
                                             UNCLASSIFIED




                                         APPENDIX A



SCOPE AND METHODOLOGY
     The scope of the review was limited to the Inspector General’s reporting categories (as
listed) and questions included in Office of Management and Budget (OMB) Memorandum
M-09-29, FY 2009 Reporting Instructions for the Federal Information Security Management Act and
Agency Privacy Management, August 20, 2009. The reporting categories included the follow-
ing:
           • Inventory
           • Certification and Accreditation (C&A), Security Controls Testing, and
             Contingency Plan Testing
           • Evaluation of Agency Oversight of Contractor Systems and Quality of
             Agency Inventory
           • Evaluation of the Agency’s Plan of Action and Milestones (POA&M) Pro-
             cess
           • Inspector General (IG) Assessment of the C&A Process
           • IG Assessment of the Agency’s Privacy Program and Privacy Impact
             Assessment (PIA) Process
           • Configuration Management
           • Incident Reporting
           • Security Awareness Training
           • Peer-to-Peer File Sharing


    The review team conducted this review in accordance with OMB guidance and Federal
Information Security Management Act of 2002 (FISMA) recommendations, which re-
quired that the team plan and perform the review to obtain sufficient, appropriate evidence
to provide a reasonable basis for its findings and conclusions based on the review objec-
tives. To accomplish this, the review team did the following:
           •       Reviewed prior FISMA reports and their supporting work papers.
           •       Interviewed Department of State Information System management to gain
                   an understanding of the policies, procedures, and controls used to imple-
                   ment FISMA and OMB guidelines.


OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009     39 .


                                             UNCLASSIFIED
                                    UNCLASSIFIED



                •     Reviewed policies and procedures posted on the Department’s intra-
                net, OpenNet.
                •     Documented its understanding of the environment.
                •     Obtained third quarter inventory records. Made a judgmental selec-
                tion of 23 systems for the in-scope FY 2009 testing. The sample of 23
                consisted of 18 systems from the previous year (FY 2008) and five new
                systems from the current year that may have interfaces with other systems
                and contain personally identifiable information.
                •     Obtained and analyzed supporting evidence from management to
                determine whether the policies, procedures, and controls implemented
                operated effectively during the fiscal year.
                •     Obtained and analyzed evidence to determine whether management
                had implemented corrective actions to close prior years’ audit findings and
                recommendations.
           During the review, the review team documented and communicated to manage-
       ment issues identified through Notices of Potential Finding and Recommendations.
       These notices were communicated to the Department management, who concurred
       with all of them.




40 .            OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                                    UNCLASSIFIED
                                             UNCLASSIFIED




                                          APPENDIX B



    FOLLOW-UP OF RECOMMENDATIONS FROM THE FY 2008 FISMA
    REPORT
         The review team reviewed actions implemented by management to mitigate the
         control gaps identified in the FY 2008 FISMA report. The current status of
         each of those recommendations is as follows:

         Recommendation 1: The Chief Information Officer should reschedule annual
         inventory data call activities to allow sufficient time to complete the analysis of
         pending items prior to the annual FISMA review.

         2009 Status – Closed. Inventory analysis started in November 2008, with quarterly updates
         performed in 2009.

         Recommendation 2: The Chief Information Officer should ensure that system
         owners are provided with improved guidance for properly identifying contractor-
         owned or -operated systems and how to report them for systems inventory
         purposes.

         2009 Status – Closed. Improved guidance was provided in inventory ToolKits, and follow-up
         was performed by the Bureau of Information Resource Management, Office of Information
         Assurance.

         Recommendation 3: The Chief Information Officer should ensure that nation-
         al security systems are properly classified and accounted for by the Bureaus of
         Information Resources Management and Diplomatic Security in their respective
         Federal Information Security Management Act inventories.

         2009 Status – Closed. Only one national security system was found in the wrong inventory
         system during an analysis of the inventory systems. This was not an exception.

         Recommendation 4: The Chief Information Officer should coordinate with
         systems owners to develop a method to ensure that each systems owner provides



OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009        41 .


                                             UNCLASSIFIED
                                   UNCLASSIFIED



       timely and complete updates to plans of action and milestones databases and relevant
       officials, including the Bureau of Information Resource Management, Office of Infor-
       mation Assurance, on a regular basis.

       2009 Status – This is a repeat recommendation from the FY 2008 report. It has become Recommen-
       dation 6 in the FY 2009 report.

       Recommendation 5: The Chief Information Officer should develop and test system
       connection agreement control (NIST SP 800-53 control CA-3) between Department
       system owners and external connection system owners to serve as a compensating con-
       trol for systems security plan testing.

       2009 Status – Partially implemented. This recommendation was combined with Recommendation 10,
       which was also partially implemented, and has become Recommendation 2 in the FY 2009 report.

       Recommendation 6: The Chief Information Officer should review the security con-
       trol testing program to ensure that all critical controls are identified and tested at least
       annually for high and moderate risk systems.

       2009 Status – Partially implemented. This recommendation has become Recommendation 1 in the
       FY 2009 report.

       Recommendation 7: The Chief Information Officer should update its policy on con-
       tingency planning to require that contingency plan test results be incorporated into an
       updated system contingency plan.

       2009 Status – Partially implemented. This recommendation was combined with Recommendation 8,
       which was also partially implemented, and has become Recommendation 3 in the FY 2009 report.

       Recommendation 8: The Chief Information Officer should provide guidance to sys-
       tem owners to ensure that contingency plan test results are adequately documented and
       incorporated, as needed, into the plans of action and milestone process.

       2009 Status – Partially implemented. This recommendation was combined with Recommendation 7,
       which was also partially implemented, and has become Recommendation 3 in the FY 2009 report.

       Recommendation 9: The Chief Information Officer should develop and document
       a process for management and oversight of contractor-owned and/or -operated infor-
       mation systems. This documented process should include, at a minimum, the process
       for identifying and describing the interconnectivity between contractor systems and the
       Department.



42 .           OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                                   UNCLASSIFIED
                                             UNCLASSIFIED



   2009 Status – Closed. Improved guidance was provided in inventory Toolkits and follow-up was per-
   formed by the Bureau of Information Resource Management, Office of Information Assurance.

   Recommendation 10: The Chief Information Officer should develop and maintain
   Interconnection Security Agreements and Memoranda of Understanding/Agreements
   in System Security Accreditation files.

   2009 Status – Partially implemented. This recommendation was combined with Recommendation 5,
   which was also partially implemented, and has become Recommendation 2 in the FY 2009 report.

   Recommendation 11: The Chief Information Officer should establish a process to
   monitor and validate security awareness training provided to those individuals without
   access to Department networks.

   2009 Status – Open.




OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009          43 .


                                             UNCLASSIFIED
                           UNCLASSIFIED




-
44 .   OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                           UNCLASSIFIED
                                             UNCLASSIFIED




                                          APPENDIX C



    BUREAU OF INFORMATION RESOURCE MANAGEMENT RESPONSE




OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009   45 .


                                             UNCLASSIFIED
                                      UNCLASSIFIED




                                         List of Recommendations

       Recommendation 1

       The Chieflnfom1ation Security Officer, Bureau of Information Resource Management (!RM)
       should:
               • Work with systems owners to identify critical and volatile controls to test and use
                 National Institute of Standards (NIST) Special Publication (SP) 800-53, revision 3,
                 Recommended Security Controls for Federal information Systems, August, 2009, PI
                 priority controls as a starting point.
               • Establish procedures to verify that volati le controls are correctly determined and
                 tested.
               • Expand the IRM qual ity control program to include analysis of how well certification
                 testing addresses critical, volatile, and inherited controls and to also determine
                 whether all controls are tested over a 3-year certification and accred itation cycle.
               • Review inherited control selection procedures and update policy in the Toolkit to
                 ensure that misunderstandings about critical but inherited control testing
                 responsibility are resolved.
               • Provide formal guidance on which NJST SP 800-53, revision 3, controls may be
                 inherited from OpenNet and the conditions under which such inheritance will be
                 approved.

       IRM Response:
       IR.M notes that the reservations and observations about critical and volatile controls stated in the
       response to recommendation 8, also apply here.
       IRM proposes the following criteria to close these recommendations:
          • Recommendation elements 1-3 shall be considered completed when recommendation 8 is
             closed.
          • IR.M will update policy in the C&A toolkit to clarify how inherited controls may be
             selected, and to better document more clearly where responsibility for the inherited
             control lies. In addition we will clari fy that even if some pan of the control is inherited,
             there may be an additional need for local controls, and encourage system owners to
             consider this.
          • Ifu\11 will modify its exit criteria checklists to verify that:
                 o Inherited controls have been selected in a manner consistent with policy.
                 o No system specific part of the contro l has been overlooked.
                 o The combination of inherited control and any system specific part of the control is
                     adequate to meet 800-53 (or other security requirement) if properly implemented.
                 o The system owner knows who is responsible for each inherited control and can
                     verify whether the inherited control is working.
          • IRM will ask N!ST to map 800-53 controls to the vulnerabilities listed in the National
             Vulnerability Database (NVD). If NIST is unable to do this, IRM will attempt a mapping




-
46 .              OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                                      UNCLASSIFIED
                                             UNCLASSIFIED




               and document the results. lRM notes that if each federal agency does such a mapping
               independently, the odds that the conclusions of each agency will be even broadly similar
               is low. The lack of a mapping is a significant national problem that would best be
               addressed by NJST or OMB.
           •   IR!V! will map non-NVD controls included in site scoring to 800-53 and document the
               results.

       Recom mendation 2

       The Chief Information Security Officer, Bureau oflnformation Resource Management, and
       systems owners should:
              • Supplement the current information provided in the Cenification and Accreditation
                  (C&A) Main Toolkit and Inventory Tool kit with additional guidance to include at
                  least the following supplemental directives:
                  )> Federal Jnfonnation Security Management Act control CA-3 as a requirement in
                      the annual testing list of"critical" or "volatile" controls for all moderate- and
                      high-impact systems.
                  'l> Guidance on how to test and verify that the control is operating effectively.
              • Be more proactive in reviewing System Security Plans and test results to ensure
                  compliance with the methodology in the C&A Toolkits.


       JRM Response:
       In numerous conversations, the OIG suggests that it believes that lRM should identifY a set of
       critical and volatile controls (C&VC) at the Department level that would be considered C&VC
       for all systems in the enterprise. Because IRM has not done this, the OIG has identified C&VCs
       which it believes meet these criteria, and evaluated the Department against these controls.


       IRM is not convinced that it can meaningfully identify C&VCs without considering the specifics
       of each system. But it is willing to reconsider this question over the next few months.


       IRM thanks the OJG for suggesting what they consider to be C& VCs. We note however, that
       last year when JRM asked NIST senior staff whether they agreed with the OIG' s proposed
       definitions from last year, they did not. We also note that NIST was unable to provide any
       practical guidance to better define these terms. In the absence of such guidance, IR.N! has
       provided operational definitions of C&VCs, within the discretion provided (required) by NIST.
       We note that every Federal agency is using a different definition from the o thers. This makes
       implementing the intent (not to mention the letter) of the NIST guidance practically impossible.


       IRM proposes the following criteria to close this recommendation:
          • IRM will review the candidate C& VCs proposed by the O!G, and consider whether they
             should be adopted by the Department.


                                                                                                          2


OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                                             UNCLASSIFIED
                                                                                                              -
                                                                                                              47 .
                                      UNCLASSIFIED




          •   Special consideration shall be given to control CA-3, which is of special concern to the
              oro.
          •   The decision and rationale for selecting C&VCs at the Department level shall be
              documented in a memorandum for the file.
          •   The toolkits involved with testing C&VCs will be modified to state more emphatically
              and explicitly that they must be tested in accordance with 800-53A. IRM believes that
              800-53A provides more than adequate guidance in this area.
          •   IRM will add criteria in its exit criteria checklists to verify that:
                  o C& VCs have been correctly identified for each system in the SSP.
                  o The C&VCs selected are consistent with the Department's definitions.
                  o The C&VCs are included in each annual test.
          •   The definition of volatile controls shall be clarified because the 010 found the following
              definition to be ambiguous:

                      The current definition: ·'Any control that shows a historical pattem of
                      WJ.reliabi lity. This shall be interpreted to mean any control for a system that has
                      been verified to be working, subsequently failed, and has not yet been verified to
                      be working again in three consecutive subsequent tests over at least 2 years."

                      The definition should be changed to: ··Any control that shows a historical pattern
                      of unreliability. This shall be interpreted to mean that if a control fails a test (after
                      it is initially verified to be working) then it shall be considered volatile for at least
                      two years. To be removed from the volati le list it must pass at least tiU'ee
                      consecutive tests successfully, and there must be at least 24 months between the
                      first and last of these passed tests."


       Recomm endation 3

       The Chieflnformation Security Officer, Bureau oflnfonnation Resource Management, and
       systems owners should:
           • Update the Contingency Plan (CP) Toolk it to include the requirement that systems
             owners should review and revise the CP after any CP failed test results.
           • Update the CP exit criteria checklist to include verification by the Bureau oflnfonnation
              Resource Management, Office of Information Assurance (IRM!lA), that the systems
             owners:
                 • Conduct CP testing in accordance with the system's National Institute of
                    Standards and Technology (NlST) Special Publ ication (SP) 800-60 revision 1,
                      Guide far Mapping Types ofinformation and Information Sysrems ro Security
                      Categories, August 2008, availability impact level as indicaled on the Security
                      Categorization Form (SCF).
                  •   Create a Plan of Action and :vi ilestone for each failed CP test/controL
                  •   Update the CP to address each failed CP test/control (or provide clear
                      documentation explainiog why no such update is necessary).



                                                                                                              3




-
48 .             OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                                      UNCLASSIFIED
                                             UNCLASSIFIED




        •    Update the exit checklists for the six documents listed to inc lude verification by IRM/ IA
             that each document is consistent with the SCF, and modify the SCF checkl ist to include
             verification by lA that these documents are updated if the impact level is revised upward.
             The documents are as follows:
                 • The System Security Plan
                 • The Contingency P lan
                 • The Security Control Assessment Plan (SCAP)
                 • The Certification Report
                 • The Authority To Operate
                 • Future Annual or Certification and Accred ita tion Tests
    IRM. Response:
     IRM proposes the following criteria to close this recommendation:

         •   Update the Contingency Plan Toolkit to include the requirement that systems owners
             review and revise the Contingency Plan following any Contingency Plan failed test
             results.

        •    The contingency plan exit criteria checklist will be modified to verify that:
             •   Contingency Plan testing is conducted in accordance wi th the system's NlST SP 800-
                 60 availabi li ty impact level as indicated on the Security Categorization Form (SCF).
             • A POA&M action was created for each failed contingency plan tests/control.
             • The contingency plan was updated to address each failed contingency plan
                 tests/control (or that clear documentation is provided explaining why no such update
                 is necessary).
        •    The exit checklists for each of the following documents will be modified to verify that
             each document is consistent "~th the System Categorization Form. The SCF checkli st
             will be modified to verify that these documents are updated if the impact level is revised
             upward.
             • The System Security Plan
             • The Contingency Plan
             • Security Control Assessment Plan (SCAP)
             • Certification Report
             • Authority To Operate
             • Future Armual Tests


    Recommendation 4

    The Chieflnformation Security Officer, Bureau oflnformation Resource Management, and the
    Senior Coord inator for Security Infrastructure Directorate should:




                                                                                                       4




OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                                             UNCLASSIFIED
                                                                                                           -
                                                                                                           49 .
                                       UNCLASSIFIED




               •    Address the extent to which centralization yersus decentralization of control testing,
                    remediation, and management should be readjusted to produce better configuration
                    management (CM).
               •    Analyze and document the extent to which centralized automation of CM is an
                    efficient and more cost-effective method than the current decentralized method.

               •    Develop an Information Security Architecture that considers how to request, review,
                    docwnent, and approve CM exceptions that may be necessary to allow th.e business of
                    the Department of State to be conducted and provide criteria for the decision process.

       IRM Res ponse:
       IRM notes that
          • The findi ngs, while true, do not always imply that the Department is either non-compliant
             or deficient.
          • The OIG assumes that the Departme nt has no abi lity to accept risk for selected detailed
               exceptions, an assumption we reject.
           •   We are not convinced that the cause and effect are connected.

       Further, we note that the level of insight into configuration management allowed by iPost and
       Site Scoring has allowed the Department to significantly reduce these problems over the last
       year. Th.is has been a major success which seems more significant than the weaknesses found.
       Further, we note that audi tors assertions that critical and/or volatile controls were not tested is
       based on the auditor's judgment of what is critical and/or volatile, while by NlST standards, that
       is the Department's decision to make, consistent with criteria defined by the Department.
       Nevertheless, IRM concurs with the recommendation, and proposes the following criteria to
       close the recommendation:
           •   IRMIBPCIEAP will address the extent to which decentral ization vs. centralization of
               control testing, remediation, and management should be readjusted to produce better
               configuration management.
           •   As part of this analysis, lRM/BPC/EAP in coordination with IRM/IA and DS/SVCS,
               shall document the extent to which centralized automation of configuration management
               is a more effective and cost efficient method than the current de-centralized manual
               processes.
           •   As a corollary, the architecture shall consider how to request, review, do~ument and
               approve configuration management exceptions that may be necessary to allow the
               business of the Department to be conducted, and provide criteria for the decision process.

       Recommendation 5

       The Cl1ief Information Security Officer, Bureau o f Information Resource Management, will
       work with systems owners to accomplish the following:


                                                                                                              5




-
50 .               OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                                       UNCLASSIFIED
                                             UNCLASSIFIED




               •   Record systemic security weaknesses identified through the iPost!Site Scoring
                   process as P lan of Action a nd Milestones (POA&M) actions to ensure the weaknesses
                   are tracked, prioritized and remediated.
               •   Report POA&M actions on a quarterly basis for sites that have low scores, requiring
                   them to raise those scores.
               •   Report POA&M actions for risk covered by iPost scoring "exceptions."

       lRJ\1 Rcspoosc:
       IR..\1 has two reservations about recommendation 5. Note: IR..\.1 has the same reservations
       concerning recomme ndation I.
       Reservation I: The O IG's recomme ndation seems to contend that all technical weaknesses must
       be closed.
               The O!G recommendation is adm irable, but is counter to the ex isting guidance governing
               Department and Agencies. As an example, when OMB implemented the FDCC standard,
               it a llowed Departments a nd Agencies to partially adopt the s ta ndard, in effect allowi ng
               Departments to manage some risk. In practice, Department of State network systems
               have adopted the same po licy. As long as overall risk is at an acceptable level, the
               Department of State policy is that the site owner may accept certain risks as necessary for
               business opera tions.
               While one cannot waive 800-53 controls, Departments and Agencies do have the option
               to implement standards that accept residual risk from other controls which (though
               desirable) ma)' not have been met. No POA&M is needed if the Department decides to
               accept risks
       Reservation 2: The OIG recommendation seems to contend that the iPost scoring system is not
       part of the PO A&M process.
               IRM refutes this contentio n based upon the fact iPost is an integral extension of the
               POA&M process, and is much stronger than similar processes implemented at any o ther
               identified Federal agency.
       Notwithstanding these reservations, discussions with the OIG suggest that there are actions the
       Department can and should take to address these broad concerns, without I 00% agreement with
       the NFR. IRM proposes the following management decision. lRM will :
           • Record systemic security weakness identified thro ugh the iPost!Site Scoring process as
             POA&M actions to ensure closure of the systemic weakness. Systemic weaknesses are
              those w hich require a broader process/policy/budget change, and not just technical
             m itigation of a particular weakness with existing resources. Systemic weaknesses also
              include those which m ight require project management and/or coordinated action among
             multiple offices to resolve.
           • Record POA&M actions on a quarterly basis for si tes that have low scores, requiring
              them to raise those scores. This action will be in addition to the process of sending
             failure letters to site managers, which is already proving to be effective.
           • Record POA&M actions for risk covered by iPost scoring "exceptions".
           • Not record POA&M actions for individual technical weaknesses.

                                                                                                         6


OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                                             UNCLASSIFIED
                                                                                                              -
                                                                                                              51 .
                                      UNCLASSIFIED




           •   Not assume that all risks must be mitigated, as long as overall risk is kept at a level which
               the Department chooses to accept.




       Recommendation 6

       The Chief Jnfonnation Security Officer, Bureau of Information Resource Management,
       should work with systems owners to implement the following:
          •    Coordinate with systems owners to develop a method that ensures that each systems
               owner provides timely and complete updates to the Plan of Action and Milestones
               (POA&M) databases and to relevant officials, including the Bureau of Information
               Resource Management, Office of Information Assurance (!A), on a regular basis
               (Recommendation 4 in the FY 2008 FISMA report).
          •    Ensure that lA management implements a process to val idate information in the
               Department POA&M database and performs a quality review on the Correction Action
               Plan report before it is submitted to the Office of Management and Budget.

       IRM Response:
       IR.M: suggests that this recommendation will be closed when !Rl\1 meets the criteria proposed
       earlier for closing Recommendation 4 from the FY 2008 FISMA review.
       IRMIIA is still continuing to work on the response for Recommendation 4 from the l'Y 2008
       FISMA review. Beginning in the 3'd quarter of2010, formal quarterly grade letters will be sent
       to Bureaus on the quality of Bureau POA&M process implementation. IA will also perform a
       quality assurance review prior to submitting the CAP to OMB.


       Recommendation 7
       The Chief Information Officer, Bureau of Information Resource Management and systems
       owners should work together to develop, publish, and implement detailed Standard Operating
       Procedures (SOP) for addressing infonnation technology (IT)-audit related weaknesses and
       findings. These SOPs should define the following:
           • Clear objectives and criteria on what should be actionable and tracked in the Office of
              Information Assurance's (IA) Plan of Action and Milestones (POA&M Department
              database and how duplicated fi ndings or findings that include business processes and
              multiple bureaus should be addressed in a collaborative effort among various parties.
                Responsibilities for each functional area in revie"~ng the findings or recommendations
              or notices of potential findings and turning them ioto actionable items to include root
              cause analyses, proposed actionable solutions, responsible parties for implementing the
              solutions, and milestones/tasks, including reasonable, scheduled completion dates, before
               they are imported into the POA&M Department database.



                                                                                                             7




-
52 .              OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                                      UNCLASSIFIED
                                             UNCLASSIFIED




     The review team also recommends that OIG modify its Compliance Analysis and Tracking
     System database to include a field that flags IT recommendations that should be imported into
     the Department's POA&M database.




     JRM Response:
     IR.M notes that no evidence is presented to document the finding that the OIG Compliance
     Analysis and Tracking Systems (CATS) database has recommendations related to IT that should
     clearly be in the POA&M database, but are not.
     IR..\11 concurs with the findings and will work tOward resolution to the extent of its ability to do
     so. It should be noted that not all of the auditors mentioned in the recommendation work for the
     Department.
     IRM recommends the foll owing criteria to close the parts of this recommendation that are the
     responsibility of the Department:

         •   IRM will work with the OIG, CFO Auditors, and A-123 auditors on an SOP, as
             recommended. Either an SOP will result, or the IR.M will document why it has not been
             possible to develop a joint SOP.
         •   If the OIG is able to add a field to CATS which flags recommendations that need to be
             tracked in the POA&M system, we will gladly use it to decide which items to track.
                   o We recommend that the SOP to be developed jointly would include clear and
                       objective criteria to decide what should be tracked.
         •   For each security-related IT audit recommendation to be tracked in the POA&M system,
             IR..'v11IA will include the fol lowing in the POA&M system (if documented in the audit
             report and/or management comments):
                   o A root cause analysis (which will be included in the POA&M Finding text box),
                   o Proposed actionable solution (required now),
                   o Responsible parties (required now).
                   o Tasks and scheduled completion dates (required now).
         •   IRM acknowledges that not all current POA&.M actions are dciined as "actionable'" (with
             clearly defined exit criteria), but we are working to improve this.


     Recommendation 8
     The Director of the Office of Computer Security, Bureau of Diplomatic Security in coordination
     with the Director of the Foreign Service Institute should:
            • Implement methods to global ly enforce the security awareness policies to suspend a
                user's access if the Cyber Security Awareness Course is not taken with 10 days of
                access to the Department of State Network or annually by the employee's anniversary
                date.


                                                                                                       8



OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                                             UNCLASSIFIED
                                                                                                            -
                                                                                                            53 .
                                      UNCLASSIFIED




              •    Enhance already existing connectivity between Active Directory (AD) and the Course
                   so that each time a user is created in AD, the user's identification is also registered in
                   the Cyber Security database per Diplomatic and Consular Posts telegram ALDAC
                   087187 and Department Notice 2008_08_060Provide additional monitoring tools for
                   the Information Systems Security Officers to ensure user compliance with established
                   policies.

       JRM Response:
       IRM proposes the following criteria to close this recommendation:

          •   Active Directory will be standardized to identify which user accounts correspond to
              primary user accountS per ALDAC 087187 and Department Notice 1008_08_060. The
              ALDAC and Department Notice have been issued and is attached.

          •   This data from active directory will be matched to and integrated with awareness training
              completion data from FS!, in iPost.
          •   An iPost report/screen will show when additional awareness training is needed for each
              primary user account.
          •   Primary user accounts without adequate security awareness training shall be assigned a
              significant risk score that increases over time.


       R ecomm enda tion 9
       The Bureau of Diplomatic Security, Assistant Director of Training, the Bureau of information
       Resource Management, Chief Information Security Officer, and the bureau system owners
       should:
               • Improve methods to identify individuals with significant security responsibilities;
               • Notify these individuals including employees, supervisors, managers, and executives
                 of their role-based training requirement;
               • Monitor compliance with the training requirements;
               • Provide management with reports that show compliance with the training
                 requirement; and
               • Modify the Student Management Training System to capture other training programs,
                 such as those paid for by the Department, to meet Continuing Professional Education
                 requirements (for example, CISSP designation).

       IRM Response:
       The Department proposes the following criteria to close this recommendation:
          • The Department will consider (and adopt, as appropriate) improved methods to identify
             who has significant security responsibilities.
          • DS and lA will develop methods to notify individuals (including employees,
             supervisors/managers, and Executives) with significant security responsibilities of needed
             training.
          • DS and lA will develop methods to incentivize bureaus to ensure that their staff who
             need role-based training obtain it on a timely basis.

                                                                                                              9




-
54 .              OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                                      UNCLASSIFIED
                                             UNCLASSIFIED




      •   These methods will be documented in the Department of State lA Training Plan.
      •   The methods will be implemented.




                                                                                                10


OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                                             UNCLASSIFIED
                                                                                                     -
                                                                                                     55 .
                                                  UNCLASSIFIED



       Department Notice: Annual Cyber Security Awareness Online Course                                                     Page I of I
       United States Department of State

       Department Announcement
       Office of Origin:      DSIEX
       Announcement Numbe r : 2008 08 060
       Date of Announcement: Augus t 14, 2008



                  Annual Cyber Security Awareness Online Course




       All Department of State computer users are required to complete and pass the annual online Cyber Security Awareness
       course (PS800) before the one-year anniversary of their last cyber awareness test. Any user that fails to meet this
       requirement may have their OpenNet Plus access revoked, pending completion of the course and exam.

       To register and take the course and exam o nline, please click on the link below and follow the instructions:

       http://f.~i.statMov/fsi/sai!Ldefault.~?Cat=Awareness_%2QTraining.

       If you have questions about the course, please contact:awar.cncss@l;tatc.gov.

       If you have technical problems with the course, please contact: f.~i<;J;hel pd<;l>k@,,tat<;,go-..:.

       Please visit the Office of Computer Security's website for updated information on computer security policies,
       procedures, and news at: http://cs.ds.state.gov.


       -. Return to previous pag~




-
56 .                        OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                                                  UNCLASSIFIED
                                             UNCLASSIFIED



Telegram                                                                                        Page I of2


UNCLASSIFIED STATE 00087187

VZCZCXR09966
RR RUEHAG RUEHAO RUEHAP RUEHAT RUEHBC RUEHBI RUEHBL RUEHBZ RUEHCD
RUEHCHI RUEHCI RUEHCN RUEHDA RUEHDE RUEHDF RUEHDT RUEHDU RUEHED RUEHEL
RUEHFK RUEHFL RUEHGA RUEHGD RUEHGH RUEHGI RUEHGR RUEHHA RUEHHM RUEHHO
RUEHHT RUEHIHL RUEHIK RUEHJO RUEHJS RUEHKN RUEHKR RUEHKSO RUEHKUK
RUEHKVI RUEHLA RUEHLH RUEHLN RUEHLZ RUE:HMA RU!:HMC RUEHMJ RUEHMR RUEHMRE
RUEHMT RUEHNAG RUEHNG RUEHNH RUEHNL RUEHNP RUEHNZ RUEHPA RUEHPB RUEHPD
RUEHPOO RUEHPT RUEHPW RUEHQU RUEHRD RUEHRG RUEHRN RUEHROV RUEHR$
RUEHTM RUEHTRO RUEHVC RUEHVK RUEHYC
DE RUEHC i7187 2262254
ZNR UUUUU ZZH
R 1322492 AUG 08
FM SECSTATE WASHDC
TO ALL DIPLOMATIC AND CONSULAR POSTS COLLECTIVE
RUEHTRO/AMEMBASSY TRIPOLI 2236
BT
UNCLAS STATE 087187
FOR ALL USERS , ISSOS , IMOS , RCSOS

E.O . 12958 : N/.Z>.
TAGS : ASEC , AADP, AMGT
SUBJECT : Annual Cyber Security Awareness Online Course -
PSSOO
1 . All Department of State computer users are reminded that
they must complete and pass the annual online Cyber Security
Awareness course , P$800 , before the one - year anniversary of
their last cyber awareness test . Any user that fails to meet
this require~ent may have their OpenNet Plus access revoked
pending completion of the course and exam .

2 . To register and take the course and exam online , please
access the following link and follow the instructions:

htto : //fsi . state.gov/fsi~sait/default . asp?Cat •Awareness
'(, 20Trainin_g

3 . If you have questions about the course , please contact :
awareness@state.gov. If you are having technical problems
with the course, please contact : fsicshelpdesk@state . 9ov .
Also, please visit the Office of Computer Security ' s website
for updated information on computer security policies ,
procedures , and news at http : //cs.ds.state.govL .

4 . Minimize considered .
RICE
BT
17187




NNNN




OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                                             UNCLASSIFIED
                                                                                                             -
                                                                                                             57 .
                                      UNCLASSIFIED



       Telegram                                                                                     Page 2 of2


       liNCLASSIFIED STATE 00087187




-
58 .              OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                                      UNCLASSIFIED
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
              of Federal programs
         and resources hurts everyone.

       Call the Office of Inspector General
                    HOTLINE
                   202-647-3320
                or 1-800-409-9926
         or e-mail oighotline@state.gov
      to report illegal or wasteful activities.

              You may also write to
           Office of Inspector General
            U.S. Department of State
              Post Office Box 9778
              Arlington, VA 22219
           Please visit our Web site at:
               http://oig.state.gov

        Cables to the Inspector General
       should be slugged “OIG Channel”
           to ensure confidentiality.
UNCLASSIFIED




UNCLASSIFIED
